CERTIFICATE OF SERVICE
No. 20-1426
EPIC SYSTEMS CORPORATION,
Petitioner,
v.
TATA CONSULTANCY SERVICES LIMITED & TATA AMERICA INTERNATIONAL
CORPORATION (dba TCS AMERICA),
Respondents.
I, Carter G. Phillips, do hereby certify that, on this fifteenth day of April,
2021, I caused a copy and an electronic copy of the letter requesting an extension of
time within which to file a response to the petition for a writ of certiorari in the
foregoing case to be served by first class mail, postage prepaid, and by email, on the
following:
MICHAEL T. BRODY
Jenner & Block LLP
353 North Clark Street
Chicago, IL 60654
(312) 222-9350
mbrody@jenner.com
Counsel for Petitioner
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

